HHS/OIG-Audit--"Administrative Costs Claimed Under Part B of the Health Insurance for the Aged and Disabled Program by Blue Cross and Blue Shield of Florida, (A-04-92-02056)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Administrative Costs Claimed Under Part B of the Health Insurance for the Aged and Disabled Program by Blue Cross
and Blue Shield of Florida," (A-04-92-02056)
May 10, 1993
Complete
Text of Report is available in PDF format (3.12 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report, prepared by Ollie Green & Company, certified public accountants, points out that Blue Cross
and Blue Shield of Florida (Plan) claimed unallowable costs of about $14.7 million for administering the Medicare Part
B program during the period October 1987 through September 1990. The unallowable costs consisted of; (1) costs of $11.7
million incurred and claimed in excess of budgeted amounts, (2) questionable costs of $2.7 million for legal and settlement
expenses as a result of a lawsuit filed by an unsuccessful bidder, and (3) other unallowable costs totaling $0.2 million.
We recommended financial adjustments and procedural improvements.